U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


  SUPPORTING DOCUMENTATION FOR
 OPERATORS PARTICIPATING IN THE
    STRIPPER OIL WELL PROPERTY
ROYALTY RATE REDUCTION PROGRAM,
 BUREAU OF LAND MANAGEMENT AND
   MINERALS MANAGEMENT SERVICE

             REPORTNO.00~I-300
                MARCH 2000
U.S. Department of the Interior                                Offke of Inspector General


                             EXECUTIVE SUMMARY

              Supporting Documentation for Operators Participating in
          the Stripper Oil Well Property Royalty Rate Reduction Program,
           Bureau of Land Management and Minerals Management Service
                                 Report No. 00-I-300
                                    March 2000

BACKGROUND

The Stripper Oil Well Property Royalty Rate Reduction Program, initiated by the Bureau of
Land Management (BLM), became effective on October 1, 1992. The Program was to
provide an economic incentive for operators to maintain or restart production of marginal or
uneconomic oil wells on Federal onshore leases by drilling new wells, by reworking existing
wells, and/or by implementing enhanced oil recovery projects. The regulatory requirements
for the Program are in the Code of Federal Regulations (43 CFR 3103.4-2). The Secretary
is required by 43 CFR 3103.4-2(5) to evaluate the effectiveness of the Program, and this
provision allows the Secretary to terminate any or all royalty rate reductions granted under
the Program upon a 6-month notice any time after September 10, 1997.
On February 18, 1998, the Department of the Interior extended the Program for an indefinite
period.

The operator is required to submit a “Stripper Royalty Rate Reduction Notification” form,
which includes the operator’s lease or agreement number, qualifying period, and reduced
royalty rate. The operator is required to calculate the reduced royalty rate using information
reported on the “Monthly Report of Operations” form. The operator calculates the average
production of oil per well per day by dividing the total oil production during the qualifying
period by the total number of producing or injecting well days. The reduced royalty rate
becomes effective on.the first day of the month after the Minerals Management Service
(MMS) receives the notification. The operators of the properties included in the Program
are allowed to pay Federal royalty rates ranging from 0.5 to 11.7 percent of the value of a
barrel of oil. These rates are below the standard onshore rate of 12.5 percent. As of
September 30, 1999, approximately 850 operators and 4,100 properties were participating
in the Program. Royalty rate reductions during the period of October 1, 1992, through
December 31, 1998, totaled more than $139 million.

Both BLM and MMS are responsible for the Program. BLM is responsible for promulgating
the Program regulations; establishing policies and procedures; conducting all on-the-ground
inspections to verify producing volumes and producing days; and reviewing production
anomalies that are identified by MMS, which are unexplained differences between reported
production from the operator’s monthly reports and the notification. MMS is responsible for
confirming the reduced royalty rate information provided by the operator on the notification
form.
OBJECTIVE

The objective of the audit was to determine whether BLM provided effective oversight of
well classification and production rates used in determining eligibility for the Program.

RESULTS IN BRIEF

We found that the “Monthly Report of Operations” form prepared by operators and used to
support reduced royalty rate determinations for the Program showed production days that
were inaccurate or that often could not be supported with operator documentation. Operators
are required by43 CFR 3 162.4-3 to accurately disclose all operations conducted on each well
during each month. However, BLM (1) did not provide sufficient oversight of operators to
ensure that information on the production days was correct and (2) did not establish Program
policies and procedures to enable participating operators to accurately compute their reduced
royalty rates and for MMS Program staff to accurately review and confirm the reduced
royalty rates provided by the operators. For the 14 Program properties reviewed, we found
that 5 properties had inaccurate rates, which may result in underpaid royalties of about
$1.27 million, and that 7 properties had unsupported rates, which may result in underpaid
royalties of $3.22 million. In addition, we found that reviews were conducted by state
auditors from the States of California, New Mexico, and Oklahoma on six additional
properties. Of the six properties, four had inaccurate rates, which resulted in underpaid
royalties of about $847,000, and one property had an unsupported rate, which may result in
underpaid royalties of $25,000. Of the 20 properties, 17 had inaccurate or unsupported rates,
which resulted in actual or potential underpaid royalties totaling about $5.36 million
(30.8 percent). If the 30.8 percent potential underpaid royalty error rate is representative of
the $139.7 million in total reduced royalty Program benefits received, the total potential for
underpaid royalties could be as much as $43.02 million, which is attributable to inaccurate
rates ($16.90 million) and unsupported rates ($26.12 million).

RECOMMENDATIONS

We recommended that BLM and MMS develop a plan which ensures that operators of the
largest benefiting properties are audited and develop a policy for operators that do not have
sufficient records to support their reduced royalty rates. We also recommended that they
develop a policy and procedures on how to address certain issues when reviewing or
preparing Program notifications and that they develop and implement a procedure for
reviewing supporting documentation for future Program notifications submitted by operators.

AUDITEE COMMENTS AND OIG EVALUATION

Both BLM and MMS concurred with the report’s four recommendations. Based on the
bureaus’ response and subsequent information, we considered two recommendations
resolved and implemented and two recommendations resolved but not implemented.




                                              2
                                                                    C-IN-MOA-OOl-98(C)-D


              United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                     Washington, DC. 20240

                                                                        MAR 2 7 2%


                                   AUDIT REPORT
Memorandum

To:             Director, Bureau of Land Management
                Director, Minerals Management Service

From:           Roger La Rouche
                Acting Assistant

Subject:        Audit Report on Supporting Documentation for Operators Participating in
                the Stripper Oil Well Property Royalty Rate Reduction Program, Bureau
                of Land Management and Minerals Management Service (No. 00-I-300)

                                  INTRODUCTION
This report presents the results of our self-initiated audit of the supporting documentation for
operators participating in the Stripper Oil Well Property Royalty Rate Reduction Program.
The objective of the audit was to determine whether the Bureau of Land Management (BLM)
provided effective oversight of well classification and production rates used in determining
eligibility for the Program. This is the second report that we are issuing on the Program.
The first report, entitled “Processing of Notifications for the Stripper Oil Well Property
Royalty Rate Reduction Program, Minerals Management Service” (No. 99-I-782), dated
August 1999, determined whether the Minerals Management Service (MMS) effectively
processed and verified royalty rate reduction notifications. (This report is synopsized in the
Prior Audit Coverage section of this report.)

BACKGROUND

The Secretary of the Interior is required by the Federal Oil and Gas Royalty Management Act
of 1982 (30 U.S.C. 5 171 l(a)) to “establish acomprehensive inspection, collection and fiscal
and production accounting and auditing system to provide the capability to accurately
determine oil and gas royalties, interest, fines, penalties, fees, deposits, and other payments
owed, and to collect and account for such amounts in a timely manner.”

The Mineral Leasing Act of 1920 (30 U.S.C. $ 209) allows the Secretary to adjust royalty
rates on Federal onshore leases to encourage the maximum amount of oil or gas to be
removed. Further, to promote development on leases that cannot be operated economically
under the existing lease terms, the Secretary may waive, suspend, or reduce the royalty on

                                               3
all or any portion of the leasehold. Both BLM and MMS have responsibilities for Federal
onshore leases. BLM’s responsibilities include issuing onshore leases and monitoring
production on the leases. MMS’s responsibilities include ensuring the proper determination,
collection, and distribution of royalties.

The Stripper Oil Well Property Royalty Rate Reduction Program,’ initiated by BLM, became
effective on October 1, 1992. The Program was to provide an economic incentive for
operators to maintain or restart production of marginal or uneconomic oil wells on Federal
onshore leases by drilling new wells, by reworking existing wells, and/or by implementing
enhanced oil recovery projects. The regulatory requirements for the Program are at
43 CFR 3 103.4-2. The Secretary is required by 43 CFR 3 103.4-2(5) to evaluate the
effectiveness of the Program, and this provision allows the Secretary to terminate any or all
royalty rate reductions granted under the Program upon a 6-month notice any time after
September 10, 1997. On February 18, 1998, the Department of the Interior extended the
Program for an indefinite period.

The operator is required to submit a notification of Program participation on
Form MMS-4377, “Stripper Royalty Rate Reduction Notification,” which includes the
operator’s lease or agreement number, qualifying period, and reduced royalty rate. The
operator is required to calculate the reduced royalty rate using production and injection
information reported on the “Monthly Report of Operations” (Form MMS-3160).* The
operator calculates the average production of oil per well per day by dividing the total oil
production during the qualifying period by the total number of producing or injecting well3
days. The resulting average is rounded down to the nearest whole barrel regardless of the
amount. The reduced royalty rate becomes effective on the first day of the month after MMS
receives the notification. The operators ofthe properties included in the Program are allowed
to pay Federal royalty rates ranging from 0.5 to 11.7 percent of the value of a barrel of oil
(see Appendix 2). These rates are below the standard onshore rate of 12.5 percent.

To qualify for the Program, eligible wells must either produce oil or serve as an injection
well for any period of time during the initial 12-month qualifying p&iod, a preceding period,
or a subsequent 12-month period. The qualifying period is used to determine the amount of
production and the royalty rate that would be effective on or after October 1, 1992. In


‘According to 43 CFR 3 103.4-2, a stripper well property is “any Federal lease or portion thereof segregated
for royalty purposes, a communitization agreement, or a participating area of a unit agreement, operated by
the same operator, that produces an average of less than 15 barrels of oil per eligible well per well-day for the
qualifying period.” Also, 43 CFR 3105.2-2 states, “When a lease or portion thereof cannot be independently
developed and operated in conformity with an established well-spacing or well-development program, the
authorized office may approve communitization or drilling agreements for such lands with other lands whether
or not owned by the United States, upon a determination that it is in the public interest.”

2 The “Monthly Report of Operations” contains monthly production data reported by operators for individual
leases and wells, including data on lease identification; well location; well production of oil, gas, and water;
number of days during the month that each well produced or injected; and other data about well site conditions
and operations.

‘According to43 CFR 3103.4-1(c)(4), an eligible injection well is a “well that injects a fluid for secondary or
enhanced oil recovery, including reservoir pressure maintenance operations.”

                                                       4
calculating the royalty rate, operators are required to use either the initial qualifying period,
which was August 1, 1990, through July 31, 1991, or if shut-in4 during this period, the
12-month production period immediately prior to the shut-in. Further, properties not
qualifying during or prior to the initial qualifying period are required to use the first
consecutive l%-month qualifying period beginning after August 3 1, 1990. In addition,
participating operators can submit notifications for further reduced royalty rates subsequent
to their initial participating rate if production levels continue to decline (these subsequent
periods are referred to as outyears). After the first outyear notification is filed, a notification
is required thereafter for each subsequent 12-month period or the royalty rate reverts to the
initial reduced royalty rate. Each outyear notification is due within 60 calendar days after
the applicable 12-month period.

Both BLM and MMS are responsible for the Program. BLM is responsible for promulgating
the Program regulations; establishing policies and procedures; conducting all on-the-ground
inspections to verify producing volumes and producing days; and reviewing production
anomalies that are identified by MMS, which are unexplained differences between reported
production from the operator’s monthly reports and the notification. MMS is responsible for
confirming the reduced royalty rate information provided by the operator on the form
“Stripper Royalty Rate Reduction Notification.” In confirming the reduced royalty rate,
MMS compares information submitted in the notification with production and well status
data previously submitted in the “Monthly Report of Operations.” The information
confirmed by MMS includes the following: the Federal mineral interest in the property, the
identification and the proper description of the property, and the operator’s status as the
current operator ofthe property. MMS also confirms that wells meet the Program definition
of a producing oil or injection well, that reported production is complete, and that the
corresponding reduced royalty rate is accurate. Upon completion of this review, MMS
notifies the operator that the calculated rate has been confirmed, adjusted, or disqualified.

As of September 30, 1999, approximately 850 operators and 4,100 properties were
participating in the Program. Royalty rate reductions during the period of October 1, 1992,
through December 3 1, 1998, totaled more than $139 million (see Appendix 3). Stripper oil
properties included single leases, communitization agreements, and units and ranged in size                     .
from a single well to more than 1,300 wells per property.

SCOPE OF AUDIT

Our audit fieldwork was conducted during March through July 1999 at MMS’s Royalty
Management Program office in Lakewood, Colorado, and BLM’s Fluid Minerals Office in
Washington, D.C. In addition, we contacted or visited BLM, state, and industry officials at
the offices and locations listed in Appendix 4. To meet our audit objective, we selected
8 New Mexico and 6 Wyoming properties (see Appendix 5) from a list of the 100 largest
benefiting properties in 1997. The properties were selected based on the number of
producing days per well and the number of wells included on the operators’ monthly reports.

4 Shut-in wells are wells from which the lease operator has temporarily stopped producing oil and gas because
of economic or other considerations but for which production may be restarted by opening a valve or turning
on a switch.

                                                     5
Our objective was to determine whether the error of overreported production days identified
by the Comptroller of the State of California (see Prior Audit Coverage) was a systemic
problem. For these properties, we examined BLM and MMS records and contacted operators
or performed site visits to the offices of 5 of the 10 operators that were responsible for the
14 properties reviewed. We obtained information from participating operators supporting
the monthly reports such as daily production logs, water injection records, and well-
production test records.

Our audit was made in accordance with the “Government Auditing Standards,” issued by the
Comptroller General of the United States. Accordingly, we included such tests of records
and other auditing procedures that were considered necessary to accomplish our objective.
We also reviewed the Department of the Interior’s Accountability Report for fiscal year
1998, which includes information required by the Federal Managers’ Financial Integrity Act
of 1982, and BLM’s annual assurance statement on management controls to determine
whether any reported weaknesses were within the objective and scope of our audit. Neither
the Accountability Report nor BLM’s assurance statement addressed BLM’s involvement
in the Program. In addition, we evaluated BLM’s system of internal controls related to the
Program. The internal control weaknesses we found are discussed in the Results of Audit
section of this report. Our recommendations, if implemented, should improve the internal
controls in the areas reviewed.

PRIOR AUDIT COVERAGE

During the past 5 years, the General Accounting Office has not issued any audit reports on
the Program. However, in August 1999, the Office of Inspector General issued the report
“Processing Notifications for the Stripper Oil Well Property Royalty Rate Reduction
Program, Minerals Management Service” (No. 99-I-782), which addressed the second part
of our audit objective. The report stated that MMS did not timely confirm notifications it
received and did not timely input the confirmed reduced royalty rates or review differences
in the royalty rates confirmed with the royalty rates paid for properties participating in the
Stripper Oil Well Property Royalty Rate Reduction Program. The report made two
recommendations for MMS to develop and implement a plan to (1) eliminate the Stripper
Oil Well Property Royalty Rate Reduction Program notification processing and data entry
backlog and to approve future notifications in a timely manner and (2) review Program
exceptions generated by the automated matching process and collect underpaid royalties
from operators. Based on MMS’s response, we considered the first recommendation resolved
and implemented and the second recommendation resolved but not implemented.

As discussed previously (see Scope of Audit), the Controller ofthe State ofcalifornia issued
an October 30, 1998, audit report on royalties reported by a production company for its
Program leases located in California for the period of January 1, 1993,
through December 3 1, 1995. The report said that the company overstated well-production
days on its “Monthly Report of Operations” during the qualifying period for the Stripper Oil
Well Property Royalty Rate Reduction Program. According to the State auditors, a primary
factor causing the misreporting was that the company’s automated system reported all days
of a month as producing unless adjustments were made based on manually generated reports
showing when a well was inactive (well downtime). Adjustments for well downtime often

                                              6
were not input into the automated system. The report also stated that overstated well-
production days were the main factor for the royalty rate to be adjusted from 2.1 percent to
2.9 percent, which resulted in royalty underpayments of more than $500,000. The company
agreed with the conclusions and subsequently paid the underpaid royalties.

                               RESULTS OF AUDIT
We found that the “Monthly Report of Operations” (Form MMS-3 160) prepared by operators
and used to support reduced royalty rate determinations for the Stripper Oil Well Royalty
Rate Reduction Program showed production days that were inaccurate or that often could
not be supported with operator documentation. Operators are required by 43 CFR 3 162.4-3
to accurately disclose all operations conducted on each well during each month. However,
BLM (1) did not provide sufficient oversight of operators to ensure that information on the
production days was correct and (2) did not establish Program policies and procedures to
enable participating operators to accurately compute their reduced royalty rates and for MMS
Program staff to accurately review and confirm the reduced royalty rates provided by the
operators. For the 14 Program properties reviewed, we found that 5 properties had
inaccurate rates, which may result in underpaid royalties of about $1.27 million, and that
7 properties had unsupported rates, which may result in increased royalties of $3.22 million
(see Appendix 5). In addition, we found that reviews were conducted by state auditors from
he States of California, New Mexico, and Oklahoma on six additional properties. Of the six
properties, four had inaccurate rates, which resulted in underpaid royalties of about
$847,000, and one property had an unsupported rate, whichmay result in increased royalties
of $25,000. Of the 20 properties, 17 had inaccurate or unsupported rates, which resulted in
actual or potential underpaid royalties totaling about $5.36 million (30.8 percent). If the
30.8 percent potential underpaid royalty error rate is representative of the $139.7 million in
total reduced royalty Program benefits received, the total potential for underpaid royalties
could be as much as $43.02 million, which is attributable to inaccurate rates ($16.90 million)
and unsupported rates ($26.12 million).

Participating Program operators are required by 43 CFR 3 103.4-2 to calculate reduced
royalty rates using production data, including well-production days as reported on the
monthly reports. Monthly reports are required by 43 CFR 3 162.4-3 to disclose accurately
all operations conducted on each well during each month. Specifically, 43 CFR 3 162.4-3
states that “it is particularly necessary that the report show for each calendar month: . . . The
number of days each well produced, whether oil or gas, and the number of days each input
[injection] well was in operation.” According to 43 CFR 3 16 1, BLM is responsible for all
operations conducted on Federal onshore leases, including the approval, inspection, and
regulation of oil and gas operations.

Record maintenance and retention requirements are established in Section 103 ofthe Federal
Oil and Gas Royalty Management Act of 1982. The Act requires records to be maintained
for 6 years after the records are generated unless the Secretary notifies the record holder that
he has initiated an audit or an investigation involving such records and requires such records
to be maintained for a longer period. The Federal Oil and Gas Royalty Simplification and
Fairness Act of 1996 amended sections of the Federal Oil and Gas Royalty Management Act
of 1982. Section 115 of the 1996 Act established a 7-year period for the retention of records

                                               7
from the date an obligation becomes due. This 7-year period (30 U.S.C. $1724(f)) applies
to oil and gas produced after September 30, 1996.

Our audit was designed to determine whether the error of over-reported production days
identified by the Controller of California (see Prior Audit Coverage) was systemic. We
determined that California, New Mexico, and Wyoming properties received more than
9 1 percent of the royalty rate reductions provided through the end of calendar year 1998 (see
Appendix 3). Based on our review of the 14 properties (see Appendix 5) we found that
only 2 properties had accurate and supported Program rates. Of the remaining 12 properties,
9 properties had deficiencies related to inaccurate or unsupported production days. Three
of the nine properties had inaccurate rates with sufficient records for recalculation, one
property had an inaccurate rate with insufficient records for recalculation, and five properties
had no records to support their Program rates. The remaining three properties had
deficiencies related to insufficient Program policies and procedures.

Production Days

BLM did not provide adequate oversight to ensure that operators participating in the Program
accurately reported well-production days on their monthly reports used in their reduced
royalty rate determinations. Because reduced royalty rates were based on the average
production per day per well during the qualifying period, the number of producing days
reported was a critical part of the reduced royalty rate calculations. BLM officials stated that
producing days reported on the “Monthly Report of Operations ” were normally not verified
by BLM oil and gas inspectors because production days were not considered to be an
essential factor when production totals were verified. In addition, BLM did not have
Program policies and procedures to ensure that operators retained records supporting their
claimed reduced royalty rates. These deficiencies are detailed in the paragraphs that follow.

    Sufficient Records for Recalculation. We identified three properties for which well-
production days were misreported during the qualifying period and for which records were
sufficient for us to recalculate the proper reduced royalty rates. Based on our recalculations,
we found that royalties were underpaid by $1,037,953 for the three properties as follows:

    - In September 1992, an operator of a New Mexico property submitted an initial
notification claiming a reduced royalty rate of 1.3 percent effective in October 1992. The
claimed rate was confirmed by MMS in March 1993. The rate calculation was based on the
monthly reports, which showed only one producing oil well that produced 61 barrels of oil
during 52 well-production days. In March 1999, we obtained daily production logs from the
operator for this property in support of the monthly reports. Our review of these records
indicated that the well was producing oil for between 4 and 6 days during the qualifying
period. The operator agreed with our findings and acknowledged that the production days
shown on the monthly reports were incorrect, which resulted in a reduced royalty rate that
was also incorrect. Further, a BLM Washington Office Program official reviewed the
operator’s field records and concluded that the records supported only 4 well-production
days. Consequently, using the 4 production days and the 61 barrels of oil, we determined
that the property averaged more than 15 barrels of oil per day, which made it ineligible for
a reduced royalty rate. Based on our recalculation of the royalties that were paid for the

                                               8
period of October 1, 1992, through December 3 1, 1998, we determined that the operator
underpaid royalties by $888,416.                                                .

    - In September 1992, an operator ofa Wyoming property submitted an initial notification
claiming a reduced royalty rate of 11.7 percent effective in October 1992. The claimed rate
was confirmed by MMS in October 1994. The rate calculation was based on the monthly
reports, which showed three producing oil wells and two water injection wells that produced
20,178 barrels of oil over a period of 680 producing and 672 injecting days (1,352 total
days). In March 1999, we obtained oil well-production test records from the operator for this
property that purportedly supported the production data shown on the monthly reports. Our
review of these production rate tests indicated that the reported volumes were produced in
1,194 days, which was 158 fewer days than the 1,3 52 days reported on the monthly reports.
Consequently, using 1 ,194 producing days and 20,178 barrels of production, we determined
that the property produced more than 15 barrels of oil per day and was therefore ineligible
for a reduced royalty rate. The operator agreed that a discrepancy existed between the
operator’s well test records and the reported monthly production and said that he would
provide us with additional information to explain the discrepancies. However, we had not
received the information as of October 1999. Based on our recalculation of the royalties paid
for the period of October 1, 1992, through December 31, 1998, we determined that the
operator underpaid royalties by $76,935.

    - In September 1992, the same Wyoming operator in the previous example submitted a
notification for another property. Our review disclosed similar reporting discrepancies. We
performed the same recalculation and determined that for the same period, the operator
underpaid royalties by $72,602 on this property.

     Incomplete Records. One property for which well-production days were misreported
during the qualifying period had records that were not sufficiently adequate for us to
accurately recalculate the proper reduced royalty rate for the property. However, based on
available information, we determined that royalties were underpaid by as much as $672,384
for the property. Specifically, in September 1992, an operator of a New Mexico lease
submitted an initial notification claiming a reduced royalty rate of 6.1 percent effective in
October 1992. The claimed rate was confirmed by MMS in January 1993. The rate
calculation was based on the monthly reports, which identified 46 producing oil wells and
8 water injection wells with production of 143,796 barrels of oil over a period of
 16,637 producing and 2,920 injecting days (19,557 total days). In March 1999, we obtained
daily tank gauging reports from the operator for this lease in support of production data that
were reported on the monthly reports. Based on our review, we found that the operator had
reported all 19,557 possible elapsed calendar days for the producing and injecting wells
during the qualifying period. Based on discussions with BLM personnel, we determined that
it was not reasonable for the 54 wells to produce or inject every day of the year. The
operator stated that its reporting system is automated and contains a default which reports
all days during each month as producing unless the system is changed manually. In addition,
the operator stated that field personnel would make written notes of well downtime but that
these records were not retained. The president of the operating company stated that “there
is not a stripper well in New Mexico that would operate 365 days a year.” Regarding water
injection records, we noted that 240 days were reported as injecting when meter readings

                                              9
indicated that injection had not occurred. The operator also concurred that these data may
have been misreported. The operator was able to provide only one well test record for a
single well of the 46 producing oil wells. The record for the one well showed oil production
of 76 barrels over 8 days (average production of 9.5 barrels per day) versus production of
92 barrels over the full 3 1 days reported on the monthly report for this well. Based on the
well test average production of 9.5 barrels per day, we concluded that the reported
production of 92 barrels would be produced in about 10 days. Based on our conclusion that
the wells could not have been operating for every day during the qualifying period, on
documentation obtained on water injection well meter readings and one well test record, and
on statements made by the president of the property’s operating company, we considered this
rate to be unsupported. Consequently, we recalculated the royalties paid for the period of
October 1, 1992, through December 3 1, 1998, using the standard onshore 12.5 percent
royalty rate and concluded that the operator did not support royalty reductions of $672,384.

    Lack of Records. The current operators of five properties could not provide
documentation supporting the eligibility of their properties for royalty rate reductions.
These operators all stated that they had purchased the participating property from a previous
qualifying Program operator and that records supporting the reduced royalty rate were not
provided at the time of sale. We attempted to contact the previous operators of these
properties and were able to contact two of them, who also stated that they were unable to
locate the records. However, one previous operator told us that records such as well test
records, pumper logs, downtime reports, and tank gauging reports are normally given to the
purchaser when a property is sold.

Each of the five properties for which we requested records had reported high numbers of
producing days during the qualifying period. Specifically, production days reported on the
monthly reports during the qualifying periods averaged 96.2 percent of the total number of
days in the year (the range was from 84 percent to 100 percent of the available days). As
stated in the section “Incomplete Records,” BLM officials and an operator told us that
stripper and associated injection wells are frequently down for reasons such as workovers
(cleaning out a well that has sanded up, pulling tubing, washing out the bottom of the well
with mud or acid, or using explosives to dislodge sand or silt); maintenance activities (such
as hot oiling to remove paraffin wax buildup); and work on pumps, motors, pipelines, and
oil storage tanks. Wells may also be down for regularly scheduled periods of time to allow
oil or gas to migrate to areas of low pressure, such as the area surrounding the well bore of
a producing well. Consequently, because records were lacking and the number of reported
producing days was high, we concluded that the five properties should not qualify for the
reduced rates claimed by the four operators. We determined that reduced royalties for these
five properties totaled $2,395,865 for the period of October 1, 1992, through
De,cember 31, 1998.

Program Policies and Procedures
BLM did not establish Program policies and procedures for participating operators and for
MMS Program staff to ensure the accuracy of reduced royalty rate determinations.
Specifically, policies and procedures were not established to address certain situations that
would impact the operators’ calculation of reduced royalty rates related to (1) the use of load

                                               10
oil in ti-acturing;5 (2) multiple completions,6 commonly known as down hole commingling
and multiple completion wells;7 and (3) water injection in a nonproducing formation on that
property. We determined that the failure to consider these situations resulted in inaccurate
Program royalty rate determinations. For the 14 sampled properties, we identified
3 properties with these situations that required technical interpretation and guidance by BLM
officials. These officials acknowledged that these situations had not been anticipated when
the Program was established. Based on our discussions and recalculations, we determined
that royalties were underpaid for the three properties by $383,13 1, as described in the
paragraphs that follow.

    Fracturing. In November 1994, an operator of a Wyoming property submitted an initial
notification claiming a reduced royalty rate of 6.1 percent effective in December 1994. The
claimed rate was subsequently recalculated and confirmed by MMS at 5.3 percent. The rate
calculation was based on the monthly reports that identified two oil wells with production
of 4,090 barrels of oil over 648 producing days. In March 1999, we obtained well-
production test records from the operator for this property in support of the monthly reports.
Our review of these records revealed large production volume reporting discrepancies
between the well-production test volumes and the volumes reported on the monthly reports.
For example, in October 1993, the operator reported production of 326 barrels of oil over
3 1 claimed production days, while the well test records showed production of 7 16 barrels of
oil over just 18 test days. Similarly, in December 1993, the operator reported no oil
production over 3 1 claimed production days, while the well test records showed production
of 209 barrels of oil over just 10 test days. The operator told us that the reporting
discrepancies were due to recovering oil used on the property for fracturing the formation.
In this case, the operator was using load oil* to fracture the formation. For the subsequent
recovery of this oil, the operator appropriately did not report the load oil as production but
did report the number of days it took to recover the load oil as producing days. While BLM
had no formal policy and procedure on fracturing with load oil as it relates to calculating
reduced royalty rates for the Program, BLM Program officials have taken the position that


5According to “Oil and Gas Terms” (by Howard R. Williams and Charles J. Meyers, Matthew Bender, New
York, 1997) fracturing refers to “a process of opening up underground channels in hydrocarbon-bearing
formations by force, rather than by chemical action such as acidizing.” Load oil may be utilized in hydraulic
fracturing, which is defined as “a mechanical method of increasing the permeability of rock, and thus
increasing the amount of oil and or gas produced from it. The method employs hydraulic pressure to fracture
the rock.”

6According to “Oil and Gas Terms” (by Howard R. Williams and Charles J. Meyers, Matthew Bender, New
York, 1997), multiple completion refers to “the completion of a single well into more than one producing
horizon. Such a well may produce simultaneously from the different horizons, or alternately from each.”

‘According to “Oil and Gas Terms” (by Howard R. Williams and Charles J. Meyers, Matthew Bender, New
York, 1997), multiple completion well refers to “a well producing from two or more formations by means of
separate tubing strings run inside the casing, each of which carries crude oil from a separate and distinct
producing formation. The separate tubing strings distinguish this form of well from a commingled well, which
produces from two or more oil bearing formations through a single tubing string in the common well casing.”

‘According to “Oil and Gas Terms” (by Howard R. Williams and Charles J. Meyers, Matthew Bender, New
York, 1997) load oil refers, in part, to “oil injected into a well as part of a fracturing operation.”

                                                     11
neither recovered load oil nor days spent recovering load oil for fracturing should be
considered for reduced royalty rate calculations. As with the preceding examples, we used
the well test records to calculate the expected number of well-production days. This
calculation resulted in a decrease of qualifying days from 648 to 358. At 358 production
days and 4,090 barrels of production, the property qualifies for a reduced royalty rate of
9.3 percent rather than the 5.3 percent claimed. Based on our recalculation of the royalties
paid for the period of November 1,1993, through December 3 1, 1998, we determined that
the operator underpaid royalties by $39,671.

    Multiple Completions and Multiple Completion Wells. In September 1992, an
operator of a New Mexico property submitted an initial notification claiming a reduced
royalty rate of 5.3 percent effective in October 1992, and the rate claimed was confirmed
by MMS in March 1993. The rate calculation was based on the monthly reports that
identified 13 producing oil wells with production of 3 1,432 barrels of oil over
4,501 well-producing days. In March 1999, we obtained daily production logs from the
operator in support of the monthly report. Based on our review of the monthly report, we
found that 8 of the 13 oil wells reported were multiple completions with down hole
commingled production’ which was produced from only 3 oil wells. According to BLM
Program officials, BLM has no written policy for the Program on multiple completions that
are commingled down hole. However, these officials told us that multiple completions with
commingled production should be counted as only one well. Accordingly, the eight wells
reported on the operations report should have been reported as only three wells. We
recalculated the well-production days based on 8 wells instead of 13 wells, which reduced
the well-producing days to 2,684. At 2,684 producing days and 3 1,432 barrels ofproduction,
the property qualifies for a reduced royalty rate of 9.3 percent instead of the 5.3 percent rate
claimed. Based on our recalculation of the royalties paid for the period of October 1,1992,
through December 3 1, 1998, we determined that the operator underpaid royalties by
$190,927.

BLM also did not have a written policy and procedure for calculating reduced royalty rates
for properties containing multiple completion wells. BLM Program officials stated that in
the case of a multiple completion wells, each producing tubing string lo should be counted as
an individual well. MMS Program officials who reviewed and confirmed the operator’s
reduced royalty rate said that they had not received guidance on how to count multiple
completions ormultiple completion wells and had assumed that multiple completions should
be counted as multiple wells regardless of commingling.

    Water Injection in a Nonproducing Formation. In September 1992, an operator of
a Wyoming lease submitted an initial notification claiming a reduced royalty rate of
2.9 percent effective in October 1992. Subsequent to MMS’s review of that rate, the
operator submitted amended monthly reports, and MMS confirmed a 2.1 percent rate. The


“According to “Oil and Gas Terms” (by Howard R. Williams and Charles J. Meyers, Matthew Bender, New
York, 1997), commingled production refers to “production from two or more wells or leases or oil-bearing
formations commingled by an operator.”

‘qubing strings are explained in footnote 7.

                                                   12
rate calculation was based on the amended monthly reports, which showed two producing
oil wells and three water injection wells with production of 3,902 barrels of oil over a period
of 535 producing and 994 injecting days (1,529 total days). In March 1999, we obtained
well-production test records from the operator for this lease in support of the monthly
reports. Based on our review of these records, we found large reporting discrepancies
between the well-production test volumes and the volumes reported by the operator on the
monthly reports. For example, during May, June, and July 199 1, the operator reported no
oil production over 74 claimed production days; however, the well test records identified
production of 806 barrels of oil over just 28 tested days. In addition, based on our review
of the amended monthly reports, we determined that the operator claimed 446 injecting days
during the period of December 1990 through July 199 1 for injection to a formation which
produced no oil from the formation on that property. BLM’s petroleum engineer for that
area said that this injection was either for the benefit of another lease or was a water disposal
well with no benefit to production and should not be counted as an eligible Program well.
In April 1999, the operator agreed that a discrepancy existed between the operator’s well test
records and the reported monthly production. Although the operator agreed to provide us
with additional information to explain the discrepancies, we had not received this
information as of August 1999. Based on the reporting discrepancies noted and the absence
of records to support the operator’s amended monthly reports and the operator’s claimed rate,
we considered this rate to be unsupported. Based on our recalculation of the royalties paid
for the period of October 1, 1992, through December 3 1, 1998, we determined that the
operator had underpaid royalties by $152,533.

During this audit, we discussed our findings with BLM and MMS officials and with state
audit agency officials, including discussions with these officials during our participation in
the April and June 1999 State and Tribal Royalty Audit Committee” meetings, since some
state audit agencies are responsible for auditing Federal onshore leases within their
boundaries. BLM and MMS officials agreed that there was a lack of policies and procedures.
Further, some state officials agreed to amend their annual audit plans to include audits of
significant Program properties. To assist in this effort, MMS officials agreed at the April
Committee meeting to identify the top 100 properties that benefited from the Program since
the Program’s inception. BLM officials subsequently agreed to request records supporting
the reduced royalty rates for these properties. Officials of California, New Mexico, and
Wyoming told us that they will begin auditing these properties. As previously stated, the
Program’s properties in these states received more than 91 percent of the royalty rate
reductions provided through the end of calendar year 1998. We have provided copies of our
applicable working papers to audit officials in New Mexico and Wyoming.

The 14 audited properties that we reviewed (see Appendix 5) received reduced royalty
Program benefits totaling about $6.94 million, and we identified 12 properties that had
inaccurate or unsupported rates, which resulted in actual or potential underpaid royalties
totaling about $4.49 million (64.7 percent). Specifically, five properties had inaccurate rates
with approximately $1.27 million in underpaid royalties, and seven properties had
unsupported rates with $3.22 million in reduced royalties in which some or all of the


“The State and Tribal Royalty Audit Committee is an organization composed of states and Indian tribes that
have audit agreements with MMS.

                                                    13
royalties may be underpaid. In addition, the States of California, New Mexico, and
Oklahoma reviewed six additional properties that had received reduced royalty Program
benefits totaling about $10.48 million. Of the six properties, five had inaccurate or
unsupported rates, which resulted in potential underpaid royalties totaling about $872,000
(8.3 percent). Specifically, four properties had inaccurate rates with $847,000 in potential
underpaid royalties, and one property had an unsupported rate with $25,000 in reduced
royalties. The combined 20 properties reviewed had reduced royalty Program benefits
totaling about $17.42 million. Of the 20 properties, 17 had inaccurate or unsupported rates,
which resulted in actual or potential underpaid royalties totaling about $5.36 million
(30.8 percent). If the 30.8 percent potential underpaid royalty error rate is representative of
the $139.7 million in total reduced royalty Program benefits received, the total potential for
underpaid royalties could be as much as $43.02 million, which is attributable to inaccurate
rates ($16.90 million) and unsupported rates ($26.12 million).

We believe that BLM and MMS, in consultation with the states which have Federal
properties participating in the Program, should develop an overall audit strategy for
participating properties other than the largest benefiting properties. Smaller properties could
be audited along with the largest benefiting properties having the same operator, especially
when systemic errors are found. For.example, erroneous information for all of an operator’s
leases may occur because the automated production reporting systems automatically report
production days equal to the number of days in the month unless the number of production
days is manually changed to reflect actual producing days.

In addition, BLM and MMS need to develop policy and procedures for instances where the
operators say that records prior to 1993 are no longer available. Such policies and
procedures are essential because while the program is entering its eighth year, a B-year
records retention requirement applies to production occurring prior to September 1, 1996.
For example, State of New Mexico royalty auditors told us that they had initiated a review
on one stripper property but were unable to obtain the supporting records. The auditors
subsequently notified the operator by issue letter that the reduced rate would not be allowed
unless supporting documentation was provided. The operator responded that it could not
locate the records and that it was required to maintain those records for only 6 years after the
records are generated. Based on our review of the top 100 benefiting properties, we found
that 57 properties had rates based on the original qualification period of August 1990 through
July 1991. However; operators had filed for subsequent outyear rate reductions on the
remaining 40 properties; thus, the supporting records for these reductions should be less than
6 years old. At a minimum, we believe that operators who cannot provide documentation
to support their reduced royalty rates should be required to requalify for the Program.

Further, we believe that BLM and MMS need to develop and implement policies and
procedures for reviewing supporting documentation on future and existing notifications that
MMS has not confirmed. Our prior audit report (see Prior Audit Cov’erage) noted that MMS
had a backlog of 589 notifications that it had not confirmed. Because of the 85 percent error
or unsupported rate (17 of the 20 properties reviewed) identified by this review and in state
auditors’ reviews, we believe that supporting documentation should be reviewed before
MMS confirms that a reduced royalty rate is warranted.


                                              14
    Recommendations

    We recommend that the Directors of BLM and MMS:
i

         1. Develop and implement a plan, in coordination with the states, which ensures that the
    largest benefiting stripper oil well properties are audited. The plan should also identify
    smaller properties (other than the largest benefiting properties) for audit and/or properties
    that can be audited in conjunction with the largest properties.

        2. Develop a policy for participating Program operators which do not have records prior
    to 1993 supporting their qualifying information on the “Monthly Reports of Operations.“
    In addition, consideration should be given to requiring requalification of operators that
    cannot provide documentation to support their reduced royalty rates.

        3. Develop Program policy and procedures which address the issues of using load oil
    in fracturing, multiple completions and multiple well completions, injecting water in a
    nonproducing formation, and other issues for reviewing and confirming the reduced royalty
    rate notifications provided by the operators.

        4. Develop and implement a procedure to review supporting records for future Program
    notifications submitted by operators and existing notifications that MMS has not confirmed.

    BLM and MMS Response and Office of Inspector General Reply
    In the January 27, 2000, response (Appendix 6) to the draft report, the Acting Director,
    BLM, and the Director, MMS, agreed with the report’s four recommendations. Subsequent
    to the response, officials from BLM and from the Assistant Secretary for Land and Minerals
    Management’s office provided additional information regarding Recommendations 2 and 4.
    Based on the response and the additional information, we consider Recommendations 2 and
    3 resolved and implemented and Recommendations 1 and 4 resolved but not implemented.
    Accordingly, the unimplemented recommendations will be referred to the Assistant Secretary
    for Policy, Management and Budget for tracking of implementation (see Appendix 7).

    Regarding Recommendation 2, officials stated, in March 3,2000, electronic correspondence,
    that MMS will make referrals to the states “for pursuit at their discretion” those cases in
    which “operators claim that they have no documentation beyond the statutory records
    retention period ” and in which MMS “has reasonable basis to doubt either the claims or the
    veracity of their stripper royalty rate notifications.” The electronic correspondence further
    stated that MMS “will incorporate alternative compliance techniques to be used for such
    cases into its routine compliance training programs” as appropriate.

    Regarding Recommendation 4, the officials stated that BLM would propose a rule or revised
    regulations by December 29,2000, for retaining supporting records for future notifications
    and subsequent periods.




                                                 15
Since the report’s recommendations are considered resolved, no fbther response to the
Office of Inspector General is required (Appendix 7).                          .

Section 5(a) of the Inspector General Act (5 U.S.C app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.




                                               16
                                                                                            APPENDIX 1




               CLASSIFICATION OF MONETARY AMOUNTS*

                Finding Area                                   Potential Additional Revenues*
                                                                         (In millions)
Royalties underpaid because of:
  - incorrect royalty rates                                            $1.56** to $16.90
  - unsupported royalty rates                                          $3.25 to $26.12
   Total                                                               $4.81” to $43.02




‘These amounts are exclusive of the $3.5 million audit exception reported in the August 1999 audit report
“Processing Notifications for the Strip,per Oil Well Property Royalty Rate Reduction Program, Minerals
Management Service” (No. 99-I-782) (see Prior Audit Coverage).

**This amount is exclusive of an underpayment of more than $500,000 identified by the State of California that
the operator subsequently paid (see Prior Audit Coverage).

                                                     17
                                                                                      APPENDIX 2




                   ROYALTY RATES FOR THE
          STRIPPER OIL WELL PROPERTY ROYALTY RATE
                     REDUCTION PROGRAM

                     Average Barrels                                 Reduced
                     of Oil Produced                                Royalty Rate
                     Per Well Per Dav                                 Percent*

                                0                                          0.5
                                1                                           1.3
                               2                                           2.1
                                3                                          2.9
                               4                                           3.7
                                5                                          4.5

                               6                                           5.3

                               7                                           6.1

                               8     .                                     6.9

                               9                                           7.7

                               10                                          8.5

                               11                                          9.3

                               12                                          10.1

                               13                                          10.9

                               14                                          11.7




‘The standard onshore Federal royalty rate as of December 1999 was 12.5 percent for 15 or more average
barrels of oil produced per well per day.

                                                  18
                                                                                                                          APPENDIX 3




                                    SCHEDULE OF ESTIMATED ANNUAL
                               STRIPPER OIL WELL PROPERTY ROYALTY RATE
                                     REDUCTIONS PROVIDED BY STATE

STATE               1992             1993             1994           1995           1996           1997        1998           Total
Alabama               $672           $2,359           $2,146         $1,974        $1,574          $1,876        $1,072       $11,673
California*        569,181        1,685,248        1,693,639      1,740,660      2,148,08 1     6,195,428     3,351,905    17,384,142
Colorado*           83,493         207,191           249,630        362,120        325,791        3 14,448      185,249     1,727,922
Illinois              1,309          10,478            8,500          7,116          6,707         12,696         8,178        54,985
Kansas                1,012          87,256          104,839         92,756         87,769         98,380        53,028      525,040
Kentucky             2,825          31,971            35,770         31,872         28,739         26,247        13,829      171,253
Louisiana-            1,052           7,250            8,981          8,021          9,657         19,906        10,763       65,63 1
Michigan                   0                 0         2,977         12,343          5,782          8,000         1,382       30,485
Mississippi         10,740          42,659            38,806         27,262         25,701         31,894        15,923      192,985
Montana*            43,245         226,169           198,564       231,954         189,920       219,736       118,629      1,228,216
Nebraska                   0           459               836              782        1,071          6,763       29,824        39,735
New Mexico*      2,167,788       8,030,576         9,282,295     10,512,819     11,516,695     15,122,579    9,643,Oll    66,275,763
Nevada                     0                0                0              0              0        1,895        5,374         7,269
North Dakota*       16,217          39,288            42,350        44,890         40,888          49,819        1,046      234,499
Ohio                 1,105            6,910            8,781          8,763         10,817         44,594       26,248       107,217
Oklahoma-           59,158          65,429            55,984         56,253        70,47 1         83,806       43,592      434,692
Pennsylvania               0                0                0              0              0        2,366        1,027         3,393
South Dakota           474           2,262               407          5,791          4,556          3,959          302        17,752
Texas               15,446          72,814            66,918        60,612         62,66 1         83,100       63,947      425,498
Utah*              138,446         693,100          999,760       1,097,454      1,092,823      1,298,732     970,115      6,290,430
Wyoming*         1,912.577       7.417.172         7.792.807     8,000.065      7549,482       7.503.793     4,318,587    44.494483


TOTALS          S5.024.740      $18.628.591      $20,593,990 $22,303,507 $23,179,185 $31,130.017 $18,863,031 $139,723,063




*States with Section 205 agreements authorized by the Federal Oil and Gas Royalty Management Act. Although the State of Alaska also has i
agreement, no Federal oil properties in the State participate in the Program.


                                                                     19
                                                                   APPENDIX 3




         OFFICES AND SITES VISITED AND/OR CONTACTED
               OFFICES AND SITES                        LOCATION

        Department of the Interior
        Bureau of Land Management
           Division of Fluid Minerals              Washington, D.C.
           Carlsbad Resource Area                  Carlsbad, New Mexico
           Hobbs Resource Area                     Hobbs, New Mexico
           Roswell District Office*                Roswell, New Mexico
           Wyoming State Office*                   Cheyenne, Wyoming
               Casper District Office              Casper, Wyoming
               Pinedale Field Office               Pinedale, Wyoming
               Rawlins District Office             Rawlins, Wyoming

        Minerals Management Service
           Royalty Management Program Office       Lakewood, Colorado

        State of California
            Oil and Gas Unit, Division of Audits   Sacramento, California

        State of New Mexico
           Bureau of Oil and Gas                   Santa Fe, New Mexico

        State of Wyoming
            Mineral Audit Division                 Cheyenne, Wyoming

        Program Operators
           Amoco Production Company                Bair Oil, Wyoming
           Conoco’                                 Ponca City, Oklahoma
           Devon Energy Corporation                Artesia, New Mexico
           Enron Oil and Gas                       Big Piney, Wyoming
           Marathon Oil Company’                   Cody, Wyoming
           Mack Energy Corporation*                Artesia, New Mexico
           Marbob Energy Corporation               Artesia, New Mexico
           North Finn, LLC’                        Casper, Wyoming
           Plains Petroleum Operating Co.’         Midland, Texas
           Texaco Exploration and Production       Hobbs, New Mexico




*Contacted only.

                                            20
                                                                       APPENDIX 5




                   RESULTS OF PROPERTIES REVIEWED
                                                                       Additional/
                                        Audited                        Unsupported
  Property     Rate       Audited       Royalty         Royalties       Royalties
  Number       Paid          Rate       Amount           Paid              Due
PRODUCTION DAYS
Sufficient Records for Recalculation
1              1.3%        12.5%             $991,536      $103,120       $888,416
2             11.7%        12.5%              626,553       549,618         76,935
3              5.3%         6.1%              303,592       230,990         72,602
   Subtotal                                                             $1.037.953
Incomplete Records
4               6.1%          12.5%      $1,018,708        $346,324      84*
                                                                         $672.3
   Subtotal                                                              $672,3 84
Lack of Records
5               6.1%          12.5%      $2,320,429      $1,132,369     $1,188,060*
6               6.1%          12.5%       1,175,620         476,012        699,608*
7                1.3%         12.5%         361,414          37,587        323,827*
8               10.9%         12.5%         297,493         211,589         85,904*
9               8.5%          12.5%         33 1.869        233.403,        98,466*
   Subtotal                                                              2.395.865
   Subtotal (Production Days)            $7.427.2 14     $3.321,012     $4.106.202
PROGRAM REGULATIONS
Fracturing
10              5.3%          9.3%            $92,235       $52,564        $39,671
Multiple Completion and Multiple Completion Wells
11              5.3%         9.3%          $443,907        $252,979       $190,928
Water Injection Into a Non-Producing Formation
12              2.1%        12.5%          $183.342         $30,810       $152,532*
   Subtotal (Program Regulations)          $719.484        $336.353       $383.131
     Total                               $8.146.698      $3.657.365     $43489.333
NO PROGRAM EXCEPTIONS
13             6.9% 6.9%                   $625,653        $625,653                  0
14             2.9% 2.9%                   $436,007        $436,007
   Total                                 $1,061,660      $1.06 1,660                 0
     Grand Total                         $9.208.358      $4.7 19.025     $4,489,333

‘Unsupported royalties due.



                                        21
                                                                                 APPENDIX 6
                                                                                   Page 1 of 5

                United States Department of the Interior
                                                                                          .
                                BUREAU OF LAND MANAGEMENT
                                     Washington, D.C. 20240
                                       http:/iwww.blm.gov



Memorandum

To:            Assistant Inspector General for Audits

Through:


From:          Tom Fry
               Acting Director, Bureau of Land Management
                  ‘t+‘+‘~@-*~@
               Walt   osenbusc                                    JAN 24 2000
               Director, Minerals Management Service

Subject:       Response to Draft Audit Report on Supporting Documentation for Operators
               Participating in the Stripper Oil Well Property Royalty Rate Reduction Program,
               Bureau of Land Management and Minerals Management Service (Assignment No.
               C-IN-MOA-001-98(C))

Thank you for the opportunity to provide this joint response to the December 1999 draft audit report
on the Stripper Oil Well Property Royalty Rate Reduction Program, which is the second report
issued on this program. We appreciate the rime and effort put into producing the document and plan
to use it, where appropriate, to aid in our continual improvement of the program.

Attached are our general comments on the audit findings and responses to the recommendations.
If you have any questions, please contact Ms. Kamilah Rasheed, BLM Audit Liaison Officer, on
202-452-5 161 or Ms. Bettine Montgomery, MMS Audit Liaison Officer, on 202-208-3976.




Attachments




                                                22
                                                                               APPENDIX 6
                                                                                 Page 2 of 5


                              JOINT RESPONSE BY
                     THE BUREAU OF LAND MANAGEMENT AND
                      THE MINERALS MANAGEMENT SERVICE

                       DRAFT AUDIT REPORT
  “SUPPORTING DOCUMENTATION FOR OPERATORS PARTICIPATING IN
    THE STRIPPER OIL WELL PROPERTY ROYALTY RATE REDUCTION
                     PROGRAM, BLM AND MMS”

Audit Agency:          Office of Inspector General (OIG)

Audit Number:          C-IN-MOA-001-98(C)

GENERAL COMMENTS

BLM and MMS appreciate the opportunity to comment on this draft report. We have met
together and with the Office of the Solicitor to determine how to best resolve the
deficiencies pointed out in the recommendations.

COMMENTS ON RECOMMENDATIONS

1. Develop and implement a plan in coordination with the states, which ensures that the
   Iargest benefiting stripper oil well properties are audited. The plan should also identify
   smaller properties (other than the largest benefiting properties) for audit and/or
   properties that can be audited in conjunction with the largest properties.

Resnonse: AGREE - MMS and BLM, in coordination with affected States, will prepare a
written plan for auditing and verifying the royalty rate for the largest properties benefiting
from the stripper oil royalty rate reduction program. MMS has provided affected States
with a listing of the 100 properties benefiting the most from the program, and the States
have incorporated audits of many of these properties in their FY 2000 audit workplans.
For the remainder of those 100 properties that are not audited by the States, BLM will
develop a plan for verifying production data reported by the operators considering the
effective use of resources, taking into account expected costs and benefits as well as the
availability of records. BLM will transmit any errors affecting the royalty rate to MMS,
who will be responsible for issuing bills and collecting the additional royalties.

The written plan will be completed by June 1,200O.

Resnonsible Officials: Assistant Director, Minerals Realty and Resource Protection,
BLM; Deputy Associate Director for Royalty Management, MMS.

2. Develop a policy for participating Program Operators who do not have records prior to
   1993 supporting their qualifying information on the “Monthly Reports of Operations.”
   In addition, consideration should be given to requiring requalification of operators that
   cannot provide documentation to support their reduced royalty rates.




                                             23
                                                                                   APPENDIX 6
                                                                                     Page 3 of 5


-   Resbonse: AGREE - With respect to stripper properties currently benefiting from royalty
    rate reductions, representatives from BLM, the Solicitor and MMS developed a letter to be
    mailed to the operators of these 100 properties, requiring submittal of existing records
    upon which the royalty rate reduction is based. Where operators have records, they will be
    required to produce them. Where operators respond that they do not have the records,
    BLM and MMS will consider appropriate actions, including issuing subpoenas in cases
    where BLM and MMS believe that the records exist. Where records do not exist and
    where there is no requirement that the records be kept (i.e., where the B-year record
    retention period has expired), BLM and MMS do not believe that any further actions are
    appropriate. BLM will issue the letters by February 4,200O.

    With respect to properties for which operators may apply for royalty relief in the future,
    BLM plans to consider proposing revised regulations that would require retention of
    records for the initial qualifying period and any subsequent period that resulted in a further
    reduction in the royalty rate. For example, the regulations may require that the records for
    such periods be retained for as long as the property is benefiting from the royalty rate
    reduction. The regulations also will address sanctions for failure to maintain these records,
    including the possibility of requiring the operator to requalify. BLM will consider how to
    issue the regulation on an expedited basis, including the possibility of an interim final rule.
    BLM plans to have a final decision on its course of action by February 11, 2000.

    Rewonsible Official: Assistant Director, Minerals Realty and Resource Protection, BLM.

    3. Develop Program policy and procedures which address the issues of using load oil in
        fracturing, multiple completions and multiple well completions, injecting water in a
        nonproducing formation, and other issues for reviewing and confirming the reduced
        royalty rate notifications provided by the operators.

    Remonse: AGREE - BLM issued Instruction Memorandum No. 2000-060 on January 4,
    2000, to all BLM Fluid Minerals offices addressing these issues (see attached copy).
    MMS will evaluate the limitations of the automated system (CRAFTS) to ensure that the
    clarifications to the policies can be realistically administered.

    4. Develop and implement a procedure to review supporting records for future Program
       notifications submitted by operators and existing notifications that the MMS has not
       confirmed.

    ResDonse: AGREE - MMS will develop guidelines for its technicians to identify
    anomalies in the reporting of production days on applications for royalty rate reductions.
    In cases where MMS finds anomalies in royalty rate reduction applications, MMS will
    refer these to BLM for follow-up and review of company records. BLM and MMS will
    meet no later than February 2000 to develop a Memorandum of Understanding, which will
    be completed by June 1,200O.

    Remonsible Officials: Assistant Director, Minerals Realty and Resource Protection,
    BLM; Deputy Associate Director for Royalty Management, MMS.



                                                24
                                                                                  APPENDIX 6
                                                                                    Page 4 of 5


                     UNITED STATES DEPARTMENT OF THE INTERIOR
                           BUREAU OF LAND MAiiAGEMENT
                               WASHINGTON, D.C. 20240

                                           January 4,200O

                                                                                  In Reply Refer To:
                                                                                       3100 (310) P

EMS TR-WSMISSION 01/05/2000
Instruction Memorandum No. 2000-060
Expires: 09/3 O/200 1

To:             All State Directors

From:           Assistant Director, Minerals, Realty and Resource Protection

Subject:       Policy for the Stripper Oil Royalty Rate Reduction Program

Program -tiea: Fluid Minerals

Purpose: This Instruction Memorandum (IM) is written to provide guidance for the stripper oil
royalty rate reduction (RRR) program.

Timeframe: The guidance in this lM is effective upon receipt.

Budget Impact: This should have a positive impact on the budget by helping ensure the program
is clear and consistently applied across the Bureau.

Background: The Inspector General conducted an audit to evaluate the effectiveness of the RRR
program. While the program is highly effective in encouraging production from stripper wells,
the audit identified the need to develop policy and guidance for the program regarding
accounting for frac/load oil; counting multiple completions and downhole commingling; and
injecting Gater into a formation which is not producing on the property. To address these issues
we are issuing the following guidance.

The operator shall not count any production until all f?ac/load oil is recovered and also shall not
count any producing days until all the fiat/load oil has been recovered. For example, if an
operator uses 700 barrels of oil to l?ac a formation and it requires 25 days to recover 700 barrels
of oil ,rhe operator should start counting the 26’h day as the first producing day and the production
from the 26’h day. This frac or load oil production and the number of producing days should be
broken out and noted separately on the Monthly Report of Operations.




                                                 25
                                                                                  APPENDIX 6
                                                                                    Page 5 of 5

                                                                                                  2

Multiple completions that are commingled downhole shall be counted as one well because the
operating expenses for this we11 would be for one well (even though there is more than one
producing formation).

MultipIe well completions with separate production strings for each zone shall be counted as
separate wells. In this situation the operator would be pa_ying increased operating expenses
(closer to the expenses of separate wells) and so should be allowed to count each completion as
an eligible wel1.

Wells injecting into a formation which is nonproducing on the property will not count as an
injection well (for the purposes of this program) and so the injecting days will not be counted
because by definition this is not an injection well for secondary/enhanced recovery [based on
definition at 43CFR 3103.4-2(a)(4)].

Manual/Handbook Sections Affected: 43CFR 3103.4-2

Coordination: This IM was coordinated with the Field Offices and Minerals Management
Service.

Contact: If you have any question about this guidance please contact, Rudy Baier at
(202) 452-5024.


Signed by:                                           Authenticated by:
Carson W. Culp                                       Robert M. Williams
Assistant Director                                   Directives, Records
Minerals, Realty and Resource Protection              & Internet Group,W0540




                                                26
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL

                    Internet Complaint Form Address

                   http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States
U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-5081 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, DC. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420


                  Outside the Continental United States
                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pac@c Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Office
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-000 1

Toll Free Numbers
      l-800-424-508 1
      TDD l-800-354-0996

FTSKommercial Numbers
    (202) 208-5300
    TDD (202) 208-2420
